         F r o m V i s i o nn

           t o A c t i o n ::





          The 2005 - 2007          7

O f f i c e o f I n s p e c t o r G e n e r a ll

               W o r k P l a nn

OIG/Pubs Unit/wcw
                                  U.S. DEPARTMENT OF COMMERCE
 E
                                   OFFICE OF INSPECTOR GENERAL

                                                             L
         FROM             VISION TO ACTION: THE 2005-2007 OIG WORK PLAN

                                                                      N


MESSAGE FROM THE IG ............................................................................................................1

                                                                                                                                1

SECURING THE NATION AND SAFEGUARDING COMMERCE’S PEOPLE AND CRITICAL ASSETS ...................3

                                                                                              3
BIS Export Licensing and Enforcement Processes ..........................................................................................................5

BIS Efforts to Ensure U.S. Compliance with the Chemical Weapons Convention Treaty ..............................................6

Information Security Policies, Management, and Oversight Department-Wide ............................................................7

Commerce Procedures for Designating Positions According to Risk/Sensitivity...........................................................9

NOAA Protection of Environmental and Weather Data..................................................................................................10


PROMOTING ECONOMIC GROWTH AND GLOBAL U.S. COMPETITIVENESS ......................................... 11

                                                                                                     1
USPTO’s Performance-Based Organization ....................................................................................................................13

NTIA Spectrum Management ..........................................................................................................................................14

NTIA Internet Stewardship ...............................................................................................................................................15

Census Planning for the 2010 Decennial ......................................................................................................................16

ITA Promotion of U.S. Exports ..........................................................................................................................................17

ITA Trade Compliance and Market Access Activities .....................................................................................................18


PROTECTING OUR ENVIRONMENT, ADVANCING SCIENTIFIC DISCOVERY, AND SPURRING TECHNOLOGICAL
                                               L
INNOVATION ........................................................................................................................... 19

                                                                                                                                        9
NOAA Ocean Stewardship Responsibilities ....................................................................................................................21

National Weather Service’s Actions to Protect Life and Property ................................................................................22

NOAA Research.................................................................................................................................................................23

NIST Scientific and Technical Research and Services ..................................................................................................24


ENSURING SOUND FISCAL MANAGEMENT, INVESTMENT, AND ACCOUNTABILITY ................................. 25

                                                                                                    5
Department-Wide Financial Management Controls and Consolidated Financial Reporting ......................................27

Effective Cost Recovery: Reimbursable Activities and User Fees

                   (Census, NOAA, NIST, NTIS, USPTO, Department-Wide).................................................................29

NTIS Business Operations ...............................................................................................................................................30

Financial Assistance Recipients’ Compliance with Federal and Program Requirements

                  (EDA, ITA, MBDA, NOAA, NIST, NTIA, Office of the Secretary)..........................................................31

Prescreening of Financial Assistance Candidates.........................................................................................................32

NIST ATP Program-Specific Audits...................................................................................................................................33

Review and Resolution of Commerce Single Audit Act Audits ......................................................................................34

Verification and Validation of Performance (BIS, Census, NOAA, NIST, NTIA, USPTO) ...............................................35


EFFECTIVELY ACQUIRING AND MANAGING MAJOR SYSTEMS AND OTHER KEY RESOURCES ................. 37

                                                                                            7
Department-Wide Planning, Management, and Oversight of IT Projects ....................................................................39

Implementation and Oversight of Acquisition Processes Department-Wide...............................................................40

Strategies for Major Systems Acquisitions .....................................................................................................................41

Major Capital Facilities Improvement Projects...............................................................................................................42

NOAA Management of Real Property, Plant, and Equipment .......................................................................................43

NOAA Acquisition of High Performance Computing Resources ....................................................................................44


                                                                                                                                                                                    iii
     NOAA Acquisition of Fisheries Research Vessels...........................................................................................................45

     NESDIS National Polar Convergence and Geostationary Satellites .............................................................................46

     Department-Wide Data Management Programs and Operations ................................................................................47


     INTERAGENCY OIG INITIATIVES: FOSTERING GOVERNMENT-WIDE IMPROVEMENTS ............................. 49

                                                                                                        9
     Government-Wide and Crosscutting Projects Involving Multiple OIGs .........................................................................51

     Electronic-Government Initiatives ...................................................................................................................................52


     SPECIAL OIG FOCUS: EMERGING ISSUES, INVESTIGATIONS, AND FOLLOW-UP ON MAJOR
                               R
     RECOMMENDATIONS ............................................................................................................... 53

                                                                                                                                      3
     Emerging Issues, Investigations, and Follow-up on Major Recommendations ...........................................................55


     APPENDIXES:
     A. Types of OIG Reviews...................................................................................................................................................56

     B. U.S. Department of Commerce Management Challenges .......................................................................................58

     C. U.S. Department of Commerce Organization Chart ..................................................................................................59

     D. Office of Inspector General Organization Chart ........................................................................................................60

     E. Office of Inspector General Contact Phone Numbers...............................................................................................61





iv
                                                       Contents Matrix of DOC C

                                                      Bureaus and Planned OIG  G

                                                              R e v i e w ss

Category PLANNED REVIEWS OR EVALUATIONS                                                                                    De p art m e n t - W i d e   B IS    C ENS U S   E DA    IT A    M B DA   NIS T   NO A A   NT IA   NT IS   O S EC   U S PT O


                                                      BIS Export Licensing and Enforcement Processes                                                    p. 5

                                                      BIS Efforts to Ensure U.S. Compliance with the CWC                                                p. 6
        National Security




                                                      Information Security Policies, Management, and Oversight                            p. 7

                                                      Procedures for Designating Positions According to Risk/Sensitivity                  p. 9

                                                      NOAA Protection of Environmental and Weather Data                                                                                                      p.10

                                                      USPTO’s Performance-Based Organization                                                                                                                                                    p.13
        Economic Competitiveness




                                                      NTIA Spectrum Management                                                                                                                                        p. 14

                                                      NTIA Internet Stewardship                                                                                                                                       p. 15

                                                      Census Planning for the 2010 Decennial                                                                     p. 16

                                                      ITA Promotion of U.S. Exports                                                                                                 p. 17

                                                      ITA Trade Compliance and Market Access Activities                                                                             p.18

                                                      NOAA Ocean Stewardship Responsibilities                                                                                                                p. 21
    Advancing Science
    and Technology




                                                      National Weather Service’s Actions to Protect Life and Property                                                                                        p. 22

                                                      NOAA Research                                                                                                                                          p. 23

                                                      NIST Scientific and Technical Research and Services                                                                                            p. 24

                                                                                                                                         p. 27
         Sound Fiscal Management and Accountability




                                                      Financial Management Controls and Consolidated Financial Reporting

                                                      Effective Cost Recovery: Reimbursable Activities and User Fees                     p. 29                   p. 29                               p. 29   p. 29            p. 29   p. 27     p. 29

                                                      NTIS Business Operations                                                                                                                                                p. 30

                                                      Financial Assistance Recipients’ Program Compliance                                p. 31                              p. 31   p. 31   p. 31    p. 31   p. 31    p. 31           p. 31

                                                      Prescreening of Financial Assistance Candidates                                    p. 32

                                                      NIST ATP Program-Specific Audits                                                                                                               p. 33

                                                      Review and Resolution of Single Audit Act Audits                                   p. 34

                                                      Verification and Validation of Performance                                                        p. 35    p. 35                               p. 35   p. 35    p. 35                     p. 35

                                                      Planning, Management, and Oversight of IT Projects                                 p. 39

                                                      Implementation and Oversight of Acquisition Processes                              p. 40
         Acquiring Major Systems and Resources




                                                      Strategies for Major Systems Acquisitions                                          p. 41

                                                      Major Capital Facilities Improvement Projects                                                              p. 42                               p. 42   p. 42                    p. 42

                                                      NOAA Management of Real Property, Plant, and Equipment                                                                                                 p. 43

                                                      NOAA Acquisition of High Performance Computing Resources                                                                                               p. 44

                                                      NOAA Acquisition of Fisheries Research Vessels                                                                                                         p. 45

                                                      NESDIS National Polar Convergence and Geostationary Satellites                                                                                         p. 46

                                                      Department-Wide Data Management Programs and Operations                            p. 47

    iple
   lt                                                                                                                                    p. 51
Mu                                                    Government-Wide and Crosscutting Projects Involving Multiple OIGs
    s
OIG                                                                                                                                      p. 52
                                                      Electronic-Government Initiatives
Follow-up
                                                      Emerging Issues, Investigations, and Follow-up                                     p. 55



                                                                                                                                                                                                                                                          v
Images of sculptures and reliefs on the exterior of the Hoover C. Hoover Building have been placed on pages that would
otherwise be blank. We hope you enjoy this spectacular art provided by DOC Photographic Services.
                                                                                           Message from the Inspector General




                          MESSAGE FROM THE INSPECTOR GENERAL

                                                           L
         I am pleased to present the Office of Inspector General’s draft work plan for 2005-2007—our
         roadmap for monitoring the Department of Commerce’s most critical activities, for assessing
         how effectively Commerce uses taxpayer dollars and serves the American public, and ulti­
         mately for apprising Congress and agency officials of needed improvements.

             Our broad objectives in this plan reflect our mission as set forth in the Inspector General
         Act of 1978: to prevent and detect fraud, waste, and abuse in Commerce programs, while
         enhancing operational effectiveness. In the 25-plus years since enactment of the IG Act,
         audits, inspections, and investigations have provided significant returns on the government’s
         investment in OIGs: recoveries of millions of misspent federal dollars, systemic improvements
         in programs and operations, better service to American taxpayers, and increased efficiency
         and accountability.

             For example, our audits and investigations of              “Our work within Commerce is part
         financial assistance awards have resulted in the               of the larger equation for ensuring
         return of millions to the Treasury. Likewise, our eval­        good government as envisioned by the
         uations of critical procurement contracts have                 IG Act. Our success rests on the vitali­
         revealed inappropriate claims and excessive costs              ty of our agenda and the strength of
         and have identified serious program vulnerabilities.           our partnership with Congress, senior
                                                                        agency officials, and the entire IG
             OIGs also promote returns on investment as                 community.”
         agents of positive change. By identifying problems                                 Johnnie E. Frazier
         early, we enable agencies to implement solutions                                   Inspector General
         before taxpayer dollars are wasted. For example, a
         review of one bureau’s contracting procedures
         revealed weaknesses in the procurement process that could have led to unfair competition.

              The work detailed in our plan encompasses our broad base of legislatively mandated
         work—reviews of IT security and export controls, along with annual financial statements
         audits, to name a few—while allowing the flexibility we need to respond swiftly to congression­
         al requests and emerging priorities—historically, the primary drivers of the work we ultimately
         perform. The plan keeps us sharply focused on our crucial oversight responsibility for key
         departmental activities, many of which have broad impact on the nation as a whole. We will,
         for instance, give close scrutiny to the Census Bureau’s preparations for the 2010 decennial,
         which will be the basis for allocating millions of federal dollars to states and local communi­
         ties.

             We give great attention to the environmental stewardship activities of the National
         Oceanic and Atmospheric Administration (NOAA), which accounts for more than 60 percent of
         the Department’s entire budget. NOAA is entrusted with protecting and enhancing the
         nation’s most vital resources—our coasts, oceans, and atmosphere. In September 2004, the
         U.S. Commission on Ocean Policy envisioned an even larger stewardship role for NOAA in the
         future. We plan to assess the broad range of NOAA’s ocean programs and responsibilities,
         with a view toward its protection and restoration of coastal resources.

            Likewise, we will conduct work in the critical area of acquisition reform. The Department
         spends more than $1.7 billion annually procuring goods and services, and the emphasis on




From Vision to Action: The 2005-2007 Office of Inspector General Work Plan                                                 1
Message from the Inspector General




         competitive sourcing throughout the federal govern-
                                                                  The President’s Management
         ment suggests that these expenditures will grow ever
         larger. As noted earlier, our past reviews of depart­
                                                                              Agenda
         mental acquisitions and related practices have con­ 1. Strategic management of human
         sistently revealed serious shortcomings and a variety      capital
         of problems, such as failure to obtain best value, and
         in some cases substantial overpayment for products 2. Competitive sourcing
         and services that may not have been the most appro­
         priate for departmental needs.                         3. Improve financial performance

             You will note our continued focus on Commerce’s 4. Electronic government
         security and emergency preparedness responsibili­ 5. Budget and performance
         ties, many of which directly impact the security of the    integration
         some of the nation’s critical assets. Our work will
         focus on a range of activities—including the Department’s efforts to safeguard its employees
         and facilities nationwide and around the world. Equally important, we continue our collabora­
         tion with the IG community on crosscutting issues that can improve the overall security and
         performance of the entire federal government.

             Our plan is, by necessity, selective in its treatment of the myriad activities conducted by
         this very diverse Department, which has a FY 2005 appropriation of more than $6 billion. By
         comparison, OIG’s FY 2005 appropriation is about $21 million. To decide how to target our
         resources most effectively, we held a series of planning seminars to prioritize the issues
         against the backdrop of the Department’s top management challenges and strategic goals,
         as well as the President’s Management Agenda. We sought input from stakeholders—
         Congress, the Office of Management and Budget, and Commerce officials and employees.
         And we consulted with our colleagues throughout the IG community regarding the broader
         challenges facing the federal government and the specific role of Commerce in meeting them.

                                                          Ultimately, our work within Commerce is part
                                                     of the larger equation for ensuring good govern­
             Commerce Strategic Goals
                                                     ment envisioned by the IG Act. Our success rests
          Goal 1: Provide the information and        on the vitality of our agenda and the strength of
          tools to maximize U.S. competitiveness     our partnership with Congress, senior agency offi­
          and enable economic growth for             cials, and the entire IG community. As you read this
          American industries, workers, and con-     draft plan, I invite you to share your thoughts with
          sumers.                                    us so that we might consider them in finalizing our
                                                     agenda. We look forward to working with you to
          Goal 2: Foster science and technological
                                                     enhance the operations of this Department and, by
          leadership by protecting intellectual
          property, enhancing technical stan­
                                                     extension, the sound functioning of the federal
          dards, and advancing measurement sci-      government as a whole.
          ence.

          Goal 3: Observe, protect, and manage
          the earth’s resources to promote envi­
          ronmental stewardship.

          Goal 4: Achieve organizational and
          management excellence.                                                      Johnnie E. Frazier
                                                                                      Inspector General


2                                                              Office of Inspector General/U.S. Department of Commerce
  S e c u r i n g t h e N a t i o n a n dd

 S a f e g u a r d i n g C o m m e r c e ’ ss

 P e o p l e a n d C r i t i c a l A s s e t ss

Striking a balance between the need to protect national security and foreign
policy interests without restricting U.S. competitiveness is an important man­
agement challenge for the Department.
      We plan to review selected aspects of Commerce's responsibilities for
security and emergency preparedness, and we will address a number of criti­
cal national security issues. We will, for example, follow up on our export con­
trol work, mandated by the National Defense Authorization Act (NDAA), to
assess the adequacy of BIS' export licensing and enforcement processes in
preventing countries and entities of concern from obtaining sensitive dual-
use technology.
       We also plan to assess BIS' efforts to oversee compliance with the
Chemical Weapons Convention Treaty, and will continue to evaluate the
effectiveness of Commerce's IT security policies and measures for safeguard­
ing critical information. OIG may also assess the Department's procedures
for designating positions according to the level of risk and sensitivity, and the
effectiveness of NOAA's program to protect vital environmental and weather
data.




                                                                                    3
                                                      Securing the Nation and Safeguarding Commerce’s People and Critical Assets




                     BIS Export Licensing and Enforcement Processes
         Objective:
         To assess the adequacy and effectiveness of the Bureau of Industry and Security’s
         (BIS’) multiagency export licensing and enforcement processes in preventing the
         acquisition of sensitive dual-use technology and technical information by countries
         and entities of concern.

         OIG plans to follow up on previous work in this area, completed pursuant to the
         National Defense Authorization Act (NDAA) for FY 2000, as amended. Prior reviews
         have assessed the timeliness, efficiency, and effectiveness of the licensing process
         as well as enforcement of export controls and other issues.

             We also will continue our NDAA-required annual follow-up reviews of actions taken
         on prior OIG recommendations. Our interagency assessments could include an analy­
         sis of the Committee on Foreign Investment in the United States and/or the cumula­
         tive effect of dual-use and munitions export controls and counterintelligence meas­
         ures.

         Background:
         The United States controls the export of
         certain goods and technologies for                     What Are Dual-Use Commodities?
         national security and foreign policy pur­
         poses. BIS administers the interagency                 The term "dual use" identifies items
         licensing process for equipment and                    regulated by Export Administration
         technologies that have both military and               Regulations (EAR) that can be used
         civilian applications, called dual-use                 in both sensitive (e.g., military or
         commodities.                                           nuclear) or nonsensitive (civil or com­
                                                                mercial) applications. In general, the
             Striking a balance between the need                term distinguishes EAR-controlled
         to protect national security and foreign               items from those subject to the con-
         policy interests without restricting U.S.              trols of the Department of State or to
         trade opportunities or competitiveness                 the nuclear-related controls of either
         poses a problem that both OIG and the                  the Department of Energy or the
         Government Accountability Office (GAO)                 Nuclear Regulatory Commission.
         have identified as a major management
         challenge for the Department.
                                                               Source: Export Administration Regulations, Part 730.3.




From Vision to Action: The 2005-2007 Office of Inspector General Work Plan                                                     5
Securing the Nation and Safeguarding Commerce’s People and Critical Assets




               BIS Efforts to Ensure U.S. Compliance with the Chemical
l
                              Weapons Convention Treaty
y
         Objective:
         To assess BIS efforts to oversee fulfillment of U.S. obligations to comply with the
         Chemical Weapons Convention Treaty (CWC).

         OIG may evaluate BIS’ CWC-related outreach to industry, assess the bureau’s efforts
         to identify U.S. companies that are not complying with the implementation of the CWC,
         and describe best practices that BIS could use to assist U.S. companies and oversee
         U.S. compliance with the treaty.

         Background:
                                                          On April 25, 1997, the United States ratified
                                                          the Convention on the Prohibition of the
                                                          Development, Production, and Use of
                                                          Chemical Weapons and their Destruction.
                                                          The U.S. enacted implementing legislation
                                                          on October 21, 1998. The CWC bans the
                                                          development, production, stockpiling, and
                                                          use of chemical weapons among its signato­
                                                          ries and provides for an extensive verifica­
                                                          tion regime to ensure compliance with its
         Source: www.nawcwpns.navy.mil/ ~treaty/CWC.html.
                                                          nonproliferation tenets. Part of BIS’ role is to
         collect and validate data from U.S. chemical companies, assist them before and dur­
         ing international inspections, and educate them about compliance obligations.

             U.S. industries produce, process, consume, import, and export a number of chem­
         icals that can be used to make chemical weapons. Under the terms of the CWC, cer­
         tain commercial chemical facilities are required to submit data declarations that
         include information on chemical production and consumption levels. Companies
         exceeding certain thresholds are required to submit appropriate documents to BIS.
         This information is then compiled and forwarded to the Organization for the
         Prohibition of Chemical Weapons (OPCW), the international body that administers the
         treaty.

             During FY 2004, BIS staff received and verified 805 declarations and reports from
         623 U.S. plant sites. BIS forwarded 783 of the declarations/reports to the OPCW. BIS
         also led 10 on-site inspections of U.S. facilities engaged in chemical-related activities.
         In addition, BIS conducted 12 assistance visits at the request of U.S. companies that
         needed help preparing their facilities for inspection by OPCW.




6                                                                     Office of Inspector General/U.S. Department of Commerce
                                                       Securing the Nation and Safeguarding Commerce’s People and Critical Assets




              Information Security Policies, Management, and Oversight

                                                                     t
                                  Department-Wide
e
         Objective:
         To determine the effectiveness of information security policies, management, and
         oversight within selected Commerce operating units, as well as the effectiveness of
         information security measures in safeguarding the integrity, confidentiality, authen­-
         ticity, and availability of information entrusted to the Department of Commerce.

         OIG will continue to evaluate the effectiveness of infor­
         mation security policies, planning, management, and                         System certification and
         oversight in selected operating units by assessing their                    accreditation packages are
         compliance with federal laws and with federal and                           the documents that support the
                                                                                     formal testing and evaluation of
         departmental policies and guidelines. Reviews will                          the security safeguards on com­
         include evaluating system certification and accredita-                      puter systems to determine
         tion packages and the units’ use of plans of action and                     whether they are implemented
         milestones to document IT security weaknesses and                           correctly and performing as
         remediation efforts.                                                        intended and for the formal
                                                                                     authorization by management
              OIG also will conduct evaluations of information                       for system operation, including
                                                                                     an explicit acceptance of risk.
         security on selected systems and networks, including
         penetration testing, throughout the Department. These
         evaluations will cover IT systems, activities, and resources, including each Commerce
         financial management system and its related networks. Reviews of individual finan­
         cial management systems and networks are conducted on a 2-year, rotating basis in
         conjunction with our contractor-performed audits of Commerce operating units’ finan­
         cial statements. The information security reviews will address the control areas iden­
         tified in NIST’s Security Self-Assessment Guide for Information Technology Systems
         and      GAO’s    Federal
         Information       System                      V u ln e r a b ilit ie s R e p o r t e d 2000- 2004
         Controls Audit Manual.
                                                4500                                4129
         Background:                                                                            3784
                                                4000
         Many of Commerce’s                     3500
                                                                                                             2683
         information technology                 3000                    2437
         systems and the data                   2500
         they contain have nation­              2000
                                                            1090
         al significance. Loss of,              1500
         or serious damage to,                  1000
         any of these critical sys­              500
         tems could be devastat­                   0
                                                          2000        2001        2002        2003        2004
         ing, so identifying weak­
         nesses and recommend-              Source: CERT Coordination Center. www.cert.org/stats/cert_stats.html.




From Vision to Action: The 2005-2007 Office of Inspector General Work Plan                                                      7
Securing the Nation and Safeguarding Commerce’s People and Critical Assets




         ing solutions is a continuing top priority for the Office of Inspector General. The
         Federal Information Security Management Act of 2002 (FISMA) requires federal infor­
         mation resources and assets to have effective security controls. FISMA also requires
         OIGs to perform annual independent security evaluations of their respective agencies.

             Strengthening information security Department-wide remains a top management
         challenge for Commerce. The Department has reported information security as a
         Federal Management Financial Integrity Act (FMFIA) material weakness in its
         Performance & Accountability Report for the past 4 fiscal years, although Commerce
         has made significant progress in improving information security and has complied
         with the requirements of FISMA in many areas.

              The development of a comprehensive, up-to-date information security policy in
         FY 2003 was an important accomplishment. But there is still a need for improvement
         in policies, management, and oversight in the Commerce operating units we have
         evaluated. For example, our FY 2004 evaluation found that the Department still faces
         considerable challenges in adequately safeguarding the hundreds of Commerce sys­
         tems, including the critical areas of assessing risk and determining appropriate secu­
         rity controls; testing and evaluating these controls; certifying and accrediting systems;
         and ensuring that personnel with specialized information security responsibilities
         receive the necessary training.




8                                                                       Office of Inspector General/U.S. Department of Commerce
                                                      Securing the Nation and Safeguarding Commerce’s People and Critical Assets




           Commerce Procedures for Designating Positions According to

                                                                    o
                          Level of Risk/Sensitivity

                                                  y
         Objective:
         To assess the Department’s policies and procedures for designating positions
         according to their potential impact on government programs and operations or
         national security and for verifying that appropriate background investigations are
         completed for current and prospective employees.

         OIG plans to review procedures for position designations and background investiga­
         tions at selected operating units to determine whether procedures are appropriate,
         designations are accurate, proper background checks are being conducted, and the
         employee database containing this information is current, correct, and complete.

         Background:
         Numerous positions within Commerce involve crucial policy-making roles as well as
         public safety and health, law enforcement, fiduciary, and other responsibilities.
         Employees in these positions are accorded a significant degree of public trust
         because they may have considerable influence on the efficiency and integrity of gov­
         ernment programs. The Department also
         has positions that could materially,
                                                       “September 11, 2001, changed
         adversely affect national security.
                                                       everything. The Department has
             Personnel attrition requires hiring on a various positions that can be criti­
         continuous basis, employee background cal to national security. Four years
         checks must be updated periodically, and ago, OIG found the Department’s
         investigative technologies are constantly records on employee background
         being advanced. Therefore, procedures for investigations were incomplete
         designating positions according to their and outdated. In a post-911 era,
         level of risk (the potential harm an individ- such findings would be viewed by
         ual in the position could cause to govern- most as unacceptable.”
         ment operations) and sensitivity (the poten­
                                                                     —Johnnie E. Frazier
         tial adverse impact on national security the
         position holder could have), as well as for
         completing appropriate background investigations, need to be reviewed periodically.

             Heads of operating units are required to designate competitive service positions
         within their unit according to level of risk and sensitivity. In FY 2001, OIG evaluated
         certain aspects of this process and concluded that the Department’s guidance for
         determining these designations needed to be strengthened. We also found instances
         where records on employee background investigations were incomplete and outdat­
         ed. Moreover, we found that inappropriate sensitivity and risk designations and inad­
         equate background checks were problems within Commerce operating units.



From Vision to Action: The 2005-2007 Office of Inspector General Work Plan                                                     9
Securing the Nation and Safeguarding Commerce’s People and Critical Assets




                   NOAA Protection of Environmental and Weather Data
         Objective:
         To assess the efforts of the National Oceanic and Atmospheric Administration’s
         (NOAA’s) data centers to safeguard and provide access to irreplaceable environ­-
         mental data.

         OIG plans to review NOAA’s data centers to determine if they have adequately safe­
         guarded irreplaceable environmental data while providing appropriate access to
         archived data.

         Background:
         NOAA operates three discipline-oriented data centers:

         � The National Oceanographic Data Center (NODC) in Silver Spring, Maryland, man­
         ages the world’s largest collection of publicly available global physical, chemical, and
         biological oceanographic data used by researchers worldwide.

         � The National Climatic Data Center (NCDC) in Asheville, North Carolina, is the world’s
         largest active archive of weather data. NCDC acquires, processes, summarizes, dis­
         seminates, and preserves a vast array of climatological data generated by national
         and international meteorological services.

                                                                                   � The National Geophysical
             Appropriations for NOAA's Data Centers                                Data Center (NGDC) in Boulder,
                           (in Millions)                                           Colorado, provides scientific
                                                                                   stewardship, products, and
                                                        68.8
                                                                                   services for geophysical data
                                                                                   describing the solid earth,
                                     64                                            marine, and solar-terrestrial
                  70                                                               environment, as well as earth
                                                                                   observations from space.
                  68
                                                                                   NGDC’s data holdings contain
                  66                                                               more than 300 digital and ana­
                  64                                                               log databases.
                  62                                                              The data archives of these cen­
                  60                                                              ters provide a record of Earth’s
                           FY 2003          FY 2004 Est                           changing environment and sup-
         Source: U.S. Department of Commerce, 2005 Congressional Budget           port numerous research and

         Submission, National Environmental Satellite, Data, and Information

         Service, Operations Research and Facilities, FY 2005 Overview,           operational applications.

         Summarized Financial Data.





10                                                                          Office of Inspector General/U.S. Department of Commerce
   P r o m o t i n g E c o n o m i cc

  G r o w t h a n d G l o b a l U . S ..

       C o m p e t i t i v e n e s ss

The Census Bureau, the International Trade Administration, the
National Telecommunications and Information Administration, and the
U.S. Patent and Trademark Office are responsible for various programs
pertaining to key business and economic functions of Commerce. For
example, ITA plays a major role in the federal government's efforts to
increase U.S. exports and is an important resource for the American
business community. USPTO's operations impact the quality and pro­
ductivity of our intellectual property system. Census results are used to
apportion seats in the House of Representatives, redraw congressional
districts, and allocate federal funding to states and local communities,
and the NTIA’s role in managing the radio frequency spectrum has a
major impact on the broadcasting business.
       OIG will continue working to determine whether ITA's efforts to
promote U.S. exports and enforce trade agreements are effective in
preventing unfairly traded imports. We will assess whether USPTO is
effectively responding to its increasing workload, and whether the
Census Bureau's preparations for the 2010 census are sound and
cost-effective. In addition, we will examine NTIA's management of the
radio spectrum and its stewardship of the Internet.




                                                                            11
                                                                    Promoting Economic Growth and Global U.S. Competitiveness




                           USPTO’s Performance-Based Organization
         Objective:
         To assess whether the United States Patent and Trademark Office (USPTO) is effectively uti­-
         lizing its authorities as a performance-based organization to become more efficient.

         OIG will perform targeted reviews of USPTO’s operation as a performance-based
         organization to determine if it is effectively handling important operational matters
         and logistical issues.

         Background:
         In response to the American Inventors Protection Act of 1999, USPTO has been reor­
         ganized so it will operate more like a business. It now has increased authority over and
         responsibility for the management of its operations, as well as greater control over its
         budget allocations and expenditures, personnel deci­
         sions and processes, and procurement operations.

             Despite the potential benefits of the change, a per­
         formance-based operation is a formidable undertaking.
         To succeed, USPTO must formulate the necessary per­
         sonnel, procurement, and administrative policies and
         develop a performance-oriented process and standards
         for evaluating cost-effectiveness while meeting its per­
         formance goals under the Government Performance and
         Results Act (GPRA).

             As a performance-based organization, USPTO must address two primary chal­
         lenges: it must attract and retain a qualified corps of patent examiners to respond to
         the increased number of patent applications, and it must solve significant information
         technology challenges.

                                          Key USPTO Statistics 2004


                                                           Patents             Trademarks
                      Number of Examiners                       3,681                           286
                      Applications Filed                     355,527                       298,489
                      Applications Granted                   170,637                       120,056
                      Backlog                                508,878                       127,060
                      First Actions                          288,315                       268,865
                      Final Disposals                        287,188                       211,062
                      Average Pendency                     27.6 mos.                     19.5 mos.

                   Source: USPTO




From Vision to Action: The 2005-2007 Office of Inspector General Work Plan                                                13
Promoting Economic Growth and Global U.S. Competitiveness




                                      NTIA Spectrum Management
         Objective:
         To evaluate the progress National Telecommunications and Information
         Administration (NTIA) is making toward achieving the national spectrum manage ­-
         ment goals.

         OIG reviews may focus on evaluating the program goals NTIA established to address
         the issues identified in June 2004 reports relating to U.S. spectrum policy for the 21st
         century and the plans developed to reach those goals. Additional reviews may address
         the progress NTIA has made in implementing the plan and reaching its goals.

         Background:
         The Communications Act of 1934 established spectrum
         management objectives, including making available a
         rapid, efficient, nationwide, and worldwide wire and radio
         communication service for the purpose of national
         defense and for promoting safety of life and property.
         NTIA was assigned the responsibility of regulating radio
         spectrum for federal users. Increased demands on the
         use of the radio frequency spectrum prompted the
         President in 2003 to issue a policy initiative to develop a
         U.S. spectrum policy for the 21st century that will foster
         economic growth; ensure national and homeland securi­
         ty; maintain America’s global leadership in communica­
         tions technology; and satisfy other vital U.S. needs.

             Subsequently, NTIA was charged to deliver two reports to the President: one to
         address recommendations for policy reform regarding the federal government’s radio
         spectrum usage and the second to address recommendations for policy reform
         regarding U.S. radio spectrum usage as a whole, including its use by federal agencies,
         state agencies, and industry. In response to this policy initiative, NTIA released two
         reports in June 2004 proposing ways to better manage the nation’s airwaves.




        Source: www.ntia.doc.gov/osmhome/osmhome.html.




14                                                          Office of Inspector General/U.S. Department of Commerce
                                                                     Promoting Economic Growth and Global U.S. Competitiveness




                                          NTIA Internet Stewardship
         Objective:
         To assess whether NTIA adequately oversees the Internet domain name system
         (DNS).

         OIG plans to review the memorandum of understanding between the Department and
         the Internet Corporation for Assigned Names and Numbers (ICANN) to assess whether
         it adequately addresses the responsibilities and strategies needed to maintain a sta­
         ble and secure DNS. As part of this review, we may:

         � Assess the program goals established by NTIA and ICANN under the memorandum
         of understanding and determine if they are being achieved; and

         � Assess how NTIA is addressing the security concerns associated with DNS.

         Background:
         The Department, through NTIA, is responsible for the DNS database, which contains
         the web site addresses of web site owners worldwide with domain names such as
         “.com,” “.net,” and “.org.” The DNS database is operated and maintained under a
         memorandum of understanding by ICANN, a nonprofit corporation formed in 1998.

             Under the memorandum of understanding, ICANN is responsible for DNS’ techni­
         cal management, security, and stability, and it uses regional contract Internet regis­
         trars to collect information about applicants who register domain names. In turn, the
         registrars sell bulk access to the DNS database to Internet users.

                                                                    Domain Identifiers


                                                                                   .net
                                                                                   11%

                                                                                          .org     .com
                                                                                           6%
         The population of Internet users is becom­ .com
                                                                                                   .net
         ing more international as global popula­   61%                                            .org
         tions register domain names using their
         local country codes. More than 60 percent                                                 Country Domains
         of new domain names are registered with a                                    Country
         “.com” ending.
                                                                                      Domains
                                                                                       22%



                                                  Source: www.icann.org/tlds/tel2/Business_Plan_Summary_Attach_7.doc.




From Vision to Action: The 2005-2007 Office of Inspector General Work Plan                                                 15
Promoting Economic Growth and Global U.S. Competitiveness




                            Census Planning for the 2010 Decennial
         Objective:
         To determine whether the Census Bureau’s planning and preparation for the 2010
         census can be integrated and tested in a timely fashion and will enable the bureau
         to effectively manage and control costs, increase accuracy, and reduce information
         security risks.

         OIG will examine selected decennial design changes to determine the extent to which
         they help manage costs, increase accuracy, and reduce risk. We will continue to
         assess the feasibility of the design and of the integration and early testing of design
         components. We plan to review major decennial contracts and some of the evolving
         operational and logistical issues associated with preparing for the decennial.

         Background:
                                                       The Census Bureau is responsible for conduct­
                                                       ing the nation’s decennial census. The results
                                                       are used to apportion seats in the House of
                                                       Representatives, redraw congressional districts,
                                                       and allocate federal funding to states and local
                                                       communities.

                                                              Early planning and agreement on a design
                                                       are essential to ensure a successful decennial
                                                       census. Census officials are concerned that the
                                                       design used to produce the 2000 decennial
                                                       cannot be repeated in 2010 without incurring
                                                       significant additional cost and risk. According to
                                                       the Government Accountability Office, in con­
                                                       stant 2000 dollars, the 1990 census cost $3.3
                                                       billion, and the 2000 census cost $6.6 billion.
                                                       The 2010 census is estimated to cost $9.3 bil­
                                                       lion.

        Source: www.census.gov/pubinfo/www/pho­
                                                             In September 2002, the bureau adopted a
        tos/2004testphotos/2004testphotos.html.         reengineered framework for conducting the
        The 2004 Census Test was conducted in northwest
                                                        decennial: an American Community Survey to
        Queens, New York, and in three counties in      collect and tabulate long-form data throughout
        Georgia.                                        the decade; an enhanced address list and geo­
                                                        graphic information database; and a program of
        early planning, development, and testing for a short-form-only census. The strategy
        uses the latest technology, such as handheld computers equipped with global posi­
        tioning system capabilities for field operations, including address canvassing and non-
        response follow-up data collection.


16                                                                Office of Inspector General/U.S. Department of Commerce
                                                                     Promoting Economic Growth and Global U.S. Competitiveness




                                      ITA Promotion of U.S. Exports
         Objective:
         To determine the effectiveness of the International Trade Administration’s (ITA’s)
         efforts to promote U.S. exports.

         We will continue inspections at International Trade Administration Commercial
         Service’s (CS’) overseas posts and domestic U.S. export assistance centers (USEACs)
         to assess their effectiveness at delivering timely and quality services and market
         assistance to their business clients; coordinating trade efforts with partner organiza­
         tions; and managing CS resources. These inspections often reveal issues that may
         affect CS’ operations in entire regions or worldwide. We also will review ITA’s new
         Manufacturing and Services Unit and its efforts to support U.S. manufacturing and
         industry competitiveness. In addition, we plan to continue reviews that focus on ITA
         program management and operational issues.

         Background:
         ITA plays a major role in the

         federal government’s efforts

         to increase U.S. exports and

         is a key resource for the

         American business communi­

         ty. Commercial Service, as

         the Department’s export pro­

         motion agency, works closely

         with the private business sec­

         tor and federal, state, and

         local trade partners to pro­

         mote U.S. sales abroad. 

                                                Source: http://ia.ita.doc.gov/ia-highlights-and-news.html.
             The Omnibus Trade and
         Competitiveness Act of 1988 mandates that OIG report to Congress its assessment of
         the management and effectiveness of CS operations, including personnel systems
         and placement of domestic and foreign staff. Congress, GAO, and OIG frequently
         focus on whether federal resources are sufficiently coordinated and strategically
         directed at helping U.S. businesses compete in foreign markets. To that end, during
         2003 and 2004, we inspected CS’ posts in Turkey, Greece, and India, as well as 3 of
         its 12 domestic USEAC networks, a total of 28 offices in the Chicago, Pacific
         Northwest, and Philadelphia regions. Inspections evaluated the effectiveness and effi­
         ciency of management, program operations, products and services, and financial and
         administrative practices in those locations.




From Vision to Action: The 2005-2007 Office of Inspector General Work Plan                                                 17
Promoting Economic Growth and Global U.S. Competitiveness




                    ITA Trade Compliance and Market Access Activities
         Objective:
         To determine if ITA’s efforts to enforce trade agreements and laws designed to help
         U.S. exporters overcome trade barriers, prevent unfairly traded imports, and cooper­-
         ate with other agencies working on these issues are effective.

         Part of OIG’s focus will be on ITA’s strategies for helping U.S. companies reduce trade
         barriers, gain greater market access, and reap benefits of trade agreements. We will
         continue to review the Commercial Service’s efforts to help U.S. companies address
         unfair trade practices, trade disputes with foreign firms, and noncompliance with or
         violations of trade agreements.

                 We also intend to build upon previous work in the Import Administration. This
         may include examining selected aspects of its investigations and administrative
         reviews of foreign producers and governments to determine whether dumping or sub­
         sidization has occurred, as well as its efforts to work with U.S. Customs and other
         agencies to enforce the assessment and collection of antidumping and countervailing
         duties. Our reviews may also cover specific components of both existing and new com­
         pliance initiatives in the Import Administration.

         Background:
         The Department’s work to monitor and ensure compliance with trade agreements has
         received considerable attention from the Office of Management and Budget (OMB)
         and Congress. ITA also has a role in protecting American businesses from inequitable
         competition from imports priced at less than normal value or subsidized by foreign
         governments. In the past few years, there has also been strong interest from OMB and
         Congress in trade compliance efforts with China and other countries because of grow­
         ing trade imbalances.




                                   Source: www.export.gov/comm_svc/.
         During 2003 and 2004, OIG inspected
         CS’ posts in Turkey, Greece, and India,
         as well as 3 of its 12 domestic USEAC
         networks, a total of 28 offices.




18                                                                     Office of Inspector General/U.S. Department of Commerce
          P r o t e c t i n g O u rr

E n v i r o n m e n t , A d v a n c i n gg

S c i e n t i f i c D i s c o v e r y , a n dd

 S p u r r i n g T e c h n o l o g i c a ll

              I n n o v a t i o nn

NOAA accounts for more than half of the annual budget of the
Department of Commerce and is charged with safeguarding our
nation's most vital resources--our oceans, coasts, and atmosphere.
NIST laboratories perform research to develop state-of-the-art measure­
ment tools, data, and models for advanced science and technology
such as building and fire research and electronics. And the National
Weather Service's work is crucial to protecting the lives and property of
every American. Programs in each of these agencies must work effi­
ciently and without fail.
      OIG plans several reviews of NOAA programs that have high
impact on science, technology, and the protection of our natural envi­
ronment. We may review NOAA's ocean programs and responsibilities,
and the efforts of the agency's data centers to safeguard and provide
access to irreplaceable environmental and weather information. We
also will examine NOAA's administrative research management, and we
plan to review the management and oversight of NIST laboratories.




                                                                            19
                               Protecting Our Environment, Advancing Scientific Discovery, and Spurring Technological Innovation




                           NOAA Ocean Stewardship Responsibilities
         Objective:
         To determine if selected National Oceanic and Atmospheric Administration (NOAA)
         coastal, ocean, and fishery stewardship programs and operations protect, restore,
         and manage coastal and marine resources efficiently and effectively.

         OIG will focus on the broad spectrum of NOAA’s
         ocean programs and responsibilities. Possible
         reviews include examining NOAA’s programs for pro­
         tecting and restoring coastal resources, such as the
         Pribilof Island restoration project, or coastal man­
         agement and stewardship programs, such as the
         Coastal Zone Management, National Estuarine
         Research Reserve System, and National Marine
         Sanctuary programs. Other reviews may target
         areas such as NOAA’s coral reef, aquaculture, and
         marine debris responsibilities, and the potential
         multibillion dollar Integrated Ocean Observing
         System. Finally, some reviews may examine the
         effectiveness of ongoing salmon recovery programs.

         Background:
         The oceans and coasts have changed drastically
         since NOAA was created more than 35 years ago. In
         that time, more than 37 million people, 19 million
         homes, and countless businesses have been added
         to coastal areas.

             In September 2004, the U.S. Commission on
         Ocean Policy presented its final report, An Ocean
         Blueprint for the 21st Century, which details the
         state of our nation’s ocean and coastal resources
         and presents recommendations for a coordinated
         and comprehensive national ocean policy. The
         Commission found that NOAA, the nation’s primary
         ocean agency, should better manage some of its
         programs and activities.                                            Source:
                                                                             www.oceancommission/gov/full_color_rpt
                                                                             /000_ocean_full_report.pdf.
                                                                              “A stronger, more effective, science-based
                                                                              and service-oriented ocean agency is need­
                                                                              ed—one that works with others to achieve
                                                                              better management of oceans and coasts
                                                                              through an ecosystem-based approach.”-­
                                                                              An Ocean Blueprint for the 21st Century




From Vision to Action: The 2005-2007 Office of Inspector General Work Plan                                                   21
Protecting Our Environment, Advancing Scientific Discovery, and Spurring Technological Innovation




          National Weather Service’s Actions to Protect Life and Property
         Objective:
         To determine how effectively the National Weather Service (NWS) forecasts, warns,
         and provides other climate-related information for the purpose of protecting life and
         property.

         NWS’ mission is to provide weather, water, and climate forecasts and warnings for the
         protection of life and property and the enhancement of the national economy. Its fore­
         casts of thunderstorms, hurricanes, flooding, tornadoes, winter weather, tsunamis,
         and other severe weather activity are of vital importance to emergency managers and
         other public officials, businesses, and the general public. OIG plans to continue over­
         sight of weather forecast offices, river forecast centers, and national centers associ­
         ated with severe weather and hazards related to climate, weather, and hydrological
         events. This may include assessing the efficiency and effectiveness of operations,
         reviewing the administrative and financial management activities of the office or cen­
         ter, and ensuring that appropriate measures are being taken to accomplish the NWS
         mission.

         Background:
         NWS has about 4,700 employees in 122 weather forecast offices, 13 river forecast
         centers, 9 national centers for environmental prediction, and other national and sup­
         port offices around the country. According to the NWS Strategic Plan for 2005-2010,
         Working Together to Save Lives, the NWS vision is for these offices to work together
         to provide the best weather, water, and climate information in the world by producing
                                                                     and delivering quality
                                                                     information; incorporat­
                                                                     ing proven advances in
                                                                     science and technology;
                                                                     measuring, reporting,
                                                                     and evaluating perform­
                                                                     ance; reducing weather-
                                                                     and water-related fatali­
                                                                     ties; and working with
                                                                     others to make its weath­
                                                                     er, water, and climate
                                                                     operations, research,
                                                                     and other products more
                                                                     effective.
         Source: www.spc.noaa.gov/.
         Accurate weather forecasts help prevent loss of lives and properties from events
         such as this tornado. The National Weather Service’s vision is for all its offices to
         work together to provide the best weather, water, and climate information in the
         world.




22                                                                             Office of Inspector General/U.S. Department of Commerce
                               Protecting Our Environment, Advancing Scientific Discovery, and Spurring Technological Innovation




                                                  NOAA Research
         Objective:
         To examine whether NOAA organizational structure and processes ensure that its
         research effectively supports operational and scientific needs.

         OIG may examine NOAA administrative research management, including the effective­
         ness of the processes used to (1) maintain scientific integrity and quality at National
         Marine Fisheries Service (NMFS) regional offices and science centers, (2) integrate
         research results and associated grant programs designed to help address endan­
         gered species and other environmental issues, or (3) assess the effectiveness of spe­
         cific research areas.

         Background:
         NOAA conducts a variety of
         research to support its environ­
         mental assessment, prediction,
         and stewardship roles. The Office
         of Oceanic and Atmospheric
         Research (OAR) has primary
         responsibility for performing
         research.

             After Congress directed NOAA to review its OAR lab configuration in early 2004,
         NOAA’s Scientific Advisory Board established a research review team to address the
         issue. The team’s findings, outlined in a final report issued August 2004, called for
         NOAA to develop a stronger and more coherent research management structure and
         to ensure that reimbursable programs are restructured to meet NOAA’s mission.

             NOAA research programs are being called on to respond to several new initiatives
         including the Global Change Research Act, which initiated the Climate Change
         Science Program.

            Both the U.S. Commission on Ocean Policy and the Pew Oceans Commission made
         formal recommendations to Congress and the nation in the 2004 Ocean Blueprint
         report and in a June 2003 Pew report, America’s Living Oceans: Charting a Course for
         Sea Change.




From Vision to Action: The 2005-2007 Office of Inspector General Work Plan                                                   23
Protecting Our Environment, Advancing Scientific Discovery, and Spurring Technological Innovation




                    NIST Scientific and Technical Research and Services
         Objective:
         To review management and oversight of National Institute of Standards and
         Technology (NIST) laboratories and assess cooperative research efforts between
         NIST labs and personnel and the private sector.

         OIG plans to review management and oversight of NIST laboratories, including peer
         review processes, customer service, equipment, human resources, and research
         results. OIG also will assess cooperative research efforts between NIST labs and
         personnel and the private sector.

         Background:
         NIST laboratories, located in Gaithersburg, Maryland, and Boulder, Colorado, perform
         research to develop state-of-the-art measurement tools, data, and models needed for
         advanced science and technology, such as building and fire research, chemical sci­
         ence and technology, electronics and electrical engineering, information technology,
         manufacturing engineering, materials science and engineering, and physics. NIST
         researchers collaborate with colleagues in industry, academic institutions, and other
         government agencies.

                         NIST Scientific and Technical Research
                                      and Services
                           Estimated FY 2004 Appropriations

                    60                                                                       51.8
                                            48.6
                    50                                  41.6       43.8
                                                                                                        37.1
                    40
                    30        21.2                                             21.4
                    20
                    10
                     0
                             BFR        CS&AM         CS&T      E&EE           ME           MS&E         P
              Source: U.S. Department of Commerce 2005 Congressional Budget Submission, NIST Scientific & Technical
              Research and Services, Summary of Resource Requirements.

              Chart Key:

              BFR        Building & Fire Research                      ME         Manufacturing Engineering

              CS&AM Computer Science & Applied Mathematics             MS& E      Materials Science & Engineering

              CS&T       Chemical Science & Technology                 P          Physics

              E&EE       Electronics & Electrical Engineering



24                                                                         Office of Inspector General/U.S. Department of Commerce
    E n s u r i n g S o u n d F i s c a ll

           M a n a g e m e n t ,,

        I n v e s t m e n t , a n dd

          A c c o u n t a b i l i t yy

Financial assistance programs routinely distribute awards ranging from
a few thousand to many millions of dollars to nonfederal entities and
organizations, a process that is inherently vulnerable to waste, fraud,
and abuse. We plan to perform at least 20-30 financial assistance
audits each year, focusing on deterrence and recovery of misspent
funds. In addition, we will conduct work to identify fiscally irresponsible
financial assistance applicants, review all single audit reports with find­
ings related to Commerce, and, finally, examine audit reports of the for-
profit companies receiving ATP funds.
       Federal law requires the annual preparation and audit of the
Department's financial statements. This audit must report whether
Commerce's financial management systems comply substantially with
federal requirements and applicable federal accounting standards. In
addition, ensuring that performance measures for programs and operat­
ing units are accurate and complete requires reliable information. We
will continue to monitor the work of the contractor performing the
Department’s annual audit and determine whether internal controls are
operating effectively, financial statements are presented fairly, and
selected Commerce operating units are properly managing reim­
bursable activities. Finally, we plan to summarize common issues noted
in prior reviews of bureau performance measures and assess progress
in addressing deficiencies.




                                                                              25
                                                                 Ensuring Sound Fiscal Management, Investment, and Accountability




                   Department-Wide Financial Management Controls and

                                                                   d
                            Consolidated Financial Reporting

                                                           g
         Objective:
         To determine whether (1) the Department’s internal controls for financial manage ­-
         ment and reporting processes are operating effectively, (2) the financial statements
         are presented fairly, and (3) the Department and its bureaus are institutionalizing
         sound financial management practices.

         OIG will ensure that audits of Commerce’s consolidated financial statements and of
         the individual operating units (as necessary) are conducted annually, primarily
         through contract with an independent certified public accounting firm. OIG will moni­
         tor the work of the contractor and ensure compliance with generally accepted govern­
         ment auditing standards. In addition to issuing an audit report, a management letter
         will be submitted to the Department with recommendations to improve internal con­
         trols and promote operating efficiencies in areas noted during the audit as problem­
         atic but not reportable.

         Background:
         The Government Management Reform Act of 1994 and the Accountability of Tax
         Dollars Act of 2002 require annual preparation and audit of organization-wide finan­
         cial statements by Commerce and other executive departments and agencies. In addi­
         tion, the 1996 Federal Financial Management Improvement Act mandates that an
         auditor report on whether the agency’s financial management systems comply sub­
         stantially with federal requirements, applicable federal accounting standards, and the

                         Consolidated Audit Findings by Fiscal Year
                   12     11
                   10
                    8              7
          Number




                                            6
                    6                                                                                 Reportable
                                                             3                                        Condition
                    4
                    2                                1               1        1                       Material
                                                                                      0        0
                    0                                                                                 Weakness
                    FY 6

                    FY 7

                    FY 8

                    FY 9

                    FY 0

                    FY 1

                    FY 2

                    FY 3
                         04
                         9

                         9

                         9

                         9

                         0

                         0

                         0

                         0
                      19

                      19

                      19

                      19

                      20

                      20

                      20

                      20

                      20
                   FY




                                                    Fiscal Year
         Source: FY 1996-FY 2004 U.S. Department of Commerce financial statements audit reports.




From Vision to Action: The 2005-2007 Office of Inspector General Work Plan                                                    27
Ensuring Sound Fiscal Management, Investment, and Accountability




         U.S. Government Standard General Ledger at the transaction level.

             Audit reports must state whether the Department (1) has consolidated financial
         statements that are presented fairly, in all material respects, and in accordance with
         generally accepted accounting principles; (2) has an internal control structure that
         provides reasonable assurance of achieving control objectives set forth by the Office
         of Management and Budget (OMB); and (3) is in compliance with applicable federal
         laws and regulations. These audit reports are issued to OMB, the Government
         Accountability Office, and Congress. OMB issues quarterly assessments of each
         agency’s financial management performance.

             The audit of the Department’s FY 2004 financial statements identified one defi­
         ciency in the internal controls related to weaknesses in general information technolo­
         gy controls (a reportable condition) and one instance of noncompliance with laws and
         regulations. We identified “Continue to strengthen financial management controls
         and systems” as one of the Top 10 Management Challenges facing the Department,
         and will continue to monitor its progress in resolving these findings as well as other
         financial management issues.




28                                                                 Office of Inspector General/U.S. Department of Commerce
                                                              Ensuring Sound Fiscal Management, Investment, and Accountability




         Effective Cost Recovery: Reimbursable Activities and User Fees
         Objective:
         To determine whether selected Commerce operating units are properly managing
         reimbursable activities, including recovering the costs of work performed under
         reimbursable agreements or user fee arrangements.

         OIG will assess the Department’s operating units’ review, reporting, and charging of
         user fees and reimbursable costs. Reviews will also assess the adequacy of operating
         units’ systems and controls related to accounting for costs and associated revenues.

         Background:
         OMB Circular A-25, User Fees, requires federal agencies to charge the full cost of pro­
         viding products and services. Three Commerce operating units—Census, NOAA, and
         NIST—combined, collect more than $600 million in revenue annually from user fees
         and reimbursable agreements.




                                 EXCERPT: OMB Circular A-25, User Fees
         “...Determining the amount of user charges to assess.

         (a) Except as provided in Section 6c, user charges will be sufficient to recover the full cost to
         the federal government (as defined in Section 6d) of providing the service, resource, or good
         when the government is acting in its capacity as sovereign.

         (b) Except as provided in Section 6c, user charges will be based on market prices (as defined
         in Section 6d) when the government, not acting in its capacity as sovereign, is leasing or sell­
         ing goods or resources, or is providing a service (e.g., leasing space in federally owned build­
         ings). Under these business-type conditions, user charges need not be limited to the recovery
         of full cost and may yield net revenues.

         (c) User charges will be collected in advance of, or simultaneously with, the rendering of serv­
         ices unless appropriations and authority are provided in advance to allow reimbursable serv­
         ices.

         (d) Whenever possible, charges should be set as rates rather than fixed dollar amounts in order
         to adjust for changes in costs to the government or changes in market prices of the good,
         resource, or service provided (as defined in Section 6d).”




From Vision to Action: The 2005-2007 Office of Inspector General Work Plan                                                 29
Ensuring Sound Fiscal Management, Investment, and Accountability




                                         NTIS Business Operations
         Objective:
         To assess the impact of National Technical Information Service’s (NTIS’) information
         systems and dissemination efforts and the continued financial viability of its web-
         based business model.

         OIG may review NTIS’ information collection and dissemination efforts, including the
         comprehensiveness of its database and the effectiveness of its Internet and other dis­
         tribution services. We also plan to review whether revenue from the sale of services
         to federal agencies, as well as the sale of technical reports and virtual library prod­
         ucts, are sufficient to ensure NTIS’ financial viability.

         Background:
         Since 1993, NTIS’ revenue has come from sales of services to federal agencies and
         sales of technical reports to business and industry, schools and universities, state and
         local government offices, and the public.

             NTIS operates a central clearinghouse of scientific and technical information for
         U.S. businesses and industry. To expand its customer base, NTIS added a virtual
         library at its web site in April 2002 that offers abstracts and downloads of reports pro­
         duced since 1997, in addition to the products previously provided. OIG conducts fol­
         low-up reviews to ensure that agencies have implemented prior recommendations, so
         we may follow up on our earlier review of NTIS’ business model.



                                   NTIS Total Business Obligations
                                                 FY 04                               FY 00
                                                 19.2 M                              38.3 M
                                                  13%                                 25%
                    FY 03
                    27.7 M
                     19%




                                     FY 02                                                  FY 01
                                     27.7 M                                                 34.7 M
                                      19%                                                    24%
         Source: U.S. Department of Commerce 2005 Congressional Budget Submission, NTIS Resource Requirements Summary.




30                                                                    Office of Inspector General/U.S. Department of Commerce
                                                              Ensuring Sound Fiscal Management, Investment, and Accountability




          Financial Assistance Recipients’ Compliance with Federal and

                                                                     d
                             Program Requirements
         Objective:
         To determine selected financial assistance award recipients’ compliance with laws,
         regulations, and award terms; adequacy of accounting systems and internal con­-
         trols; allowability of costs; and the level of a project’s intended results actually
         achieved.

         OIG’s External Audits Task Force plans and conducts all financial assistance audits
         and typically performs 20 to 30 audits each year. Some audits are prompted by
         requests from agency officials, but most are self-initiated. We use a combination of
         survey and selection techniques to identify projects susceptible to noncompliance.
         High-vulnerability financial assistance projects include those that (1) have never been
         audited; (2) have previously been audited and found to have significant noncompli­
         ance issues and questioned costs; or (3) have shown evidence of certain financial
         indicators of fraud, waste, and abuse. We also follow up on complaints received via
         the OIG Hotline about specific financial assistance recipients.

         Background:
         Commerce distributed more than $1.4 billion in FY 2004 in financial assistance
         awards under 73 programs administered by its agencies. These awards range from
         thousands to millions of dollars and support specific projects and programs conduct­
         ed by about 3,000 nonfederal entities. Because most awards cover multiple years, the
         Department’s exposure at any one time is even more significant. For example, EDA’s
         Revolving Loan Fund Program alone has about 500 operators around the country that
         manage an estimated $1 billion in cash, outstanding loans, and other assets.

             OIG regularly conducts cost and
                                                    Department of Commerce Awards, FY2004
         compliance audits of selected proj­
         ects—often at the request of agency                                           EDA
         officials. We focus on those that                                             18%
                                                                                                  NIST
         offer the greatest potential return
         on investment, as measured in                                                            13%
         terms of deterrence value or actual                                                      NTIA
         recovery of misspent funds. In fact, NOAA                                                  3%
         these audits lead agencies to recov­ 62%
         er millions of dollars each year and                                     OS ITA             MBDA
         improve project financial manage­                                        1%      1%            2%
         ment systems and performance.        Source: U.S. Department of Commerce, Office of Acquisition
                                                         Management, Federal Assistance Award Data System.




From Vision to Action: The 2005-2007 Office of Inspector General Work Plan                                                 31
Ensuring Sound Fiscal Management, Investment, and Accountability




                                      Prescreening of Financial Assistance Candidates
         Objective:
         To identify and screen out fiscally irresponsible candidates for Commerce financial
         assistance awards before final funding actions are taken.

         Our goal is to identify fiscally irresponsible candidates and prevent them from getting
         Commerce financial assistance awards before they reach the end of the applications
         process and actually receive money.

         Background:
         The Department awards more than $1 billion per year in financial assistance to thou­
         sands of state and local governments, nonprofits, and for-profit organizations. To
         ensure that the organizations are fiscally responsible, OIG assesses the financial con­
         dition of each applicant before awards are made and determines whether they have
         any unresolved audit issues. In some cases, OIG also conducts limited background
         checks of individuals in those organizations to determine whether the organization or
         individuals in the organization have any criminal history.

            Depending on the screening results, OIG might recommend that the operating unit
         deny or delay an award, or approve it with special conditions to better protect the gov­
         ernment’s financial interests. If we discover significant adverse information, we notify
         the grants officer, who then consults with both the program officer and OIG before
         making a final award decision.


                                 Department of Commerce’s Financial Assistance Awards Process
                                    Legislative authority and appropriations
                Congress




                                                  requirements



                                                                                                            Preaward Screening
             Department of




                                                                                                     Office of General Counsel review
              Commerce




                                                                                                                                                                Financial
                                    Policies and procedures                                          Office of Inspector General review                     assistance review
                                                                                                        · Limited background check                                board
                                                                                                                · Credit review
                                                                                                         · Outstanding audit issues


                                 Policies and                Solicitation             Review                                                                                         Grant
                                 procedures             Public announcement      · Independent                Selection                                                            Signed by
                Bureau Program




                                                                                review panel(s)         · Quantitative scores                     Preaward Screening
                                                          and notification of                                                                                                    grants officer
                                                         financial assistance      · Evaluation   · Public policy considerations           · Outstanding accounts receivable     or designated
                                                             opportunities             criteria       · Action recommended                   · Suspensions and debarments            official
                                                                                    · Numeric        · Documentationand full              · Proper preparation of the proposal
                                                                                      ranking       justification of the decision



                                                                                                                                                                                     Award
           Assistance
            Applicant
            Financial




                                                        Proposal




32                                                                                                                   Office of Inspector General/U.S. Department of Commerce
                                                               Ensuring Sound Fiscal Management, Investment, and Accountability




                                   NIST ATP Program-Specific Audits
         Objective:
         To review the program-specific audits of the for-profit companies receiving NIST
         Advanced Technology Program (ATP) cooperative agreements and participate in the
         resolution of audit findings reported in these audits.

         OIG will review all ATP audit reports received from outside CPA firms or Defense
         Contract Audit Agency and work with the NIST audit action official to resolve the find­
         ings and recommendations in them. In addition, our office will provide technical assis­
         tance related to the audit requirements of the ATP program to award recipients and
         their independent public accountants.

         Background:
         From its inception in 1990 through September 2004, the Advanced Technology
         Program bestowed 768 awards totaling $2.3 billion in federal funding to companies
         developing technologies. About 85 percent of the joint ventures and individual com­
         panies receiving these federal awards are for-profit entities not subject to the Single
         Audit Act. NIST requires that independent public accountants audit for-profit compa­
         nies using ATP program-specific audit guidelines audit for-profit companies.

             As    with     single
         audits, a written agree-                 ATP Budget History Through 2004
         ment on the resolution                            (in Millions)
         of the audit findings is
         required, and this is a           250.00
         coordinated        effort                      203.50                          184.50 180.00 179.18
         between the Office of             200.00                 142.60 145.70
         Inspector General and
                                           150.00
         NIST. Our office reviews
         about 150 ATP pro-                100.00
         gram-specific       audit
                                            50.00
         reports annually and
         participates in the audit            0.00
         resolution of findings in                      FY         FY         FY        FY         FY         FY
         approximately 30 of                           1999       2000       2001      2002       2003       2004
         these reports.                  Source: U.S. Department of Commerce annual appropriations bills, 1999-2004.




From Vision to Action: The 2005-2007 Office of Inspector General Work Plan                                                  33
Ensuring Sound Fiscal Management, Investment, and Accountability




            Review and Resolution of Commerce Single Audit Act Audits
         Objective:
         To assist Commerce agencies awarding financial assistance in fulfilling our joint
         responsibilities under the Single Audit Act, as implemented by OMB Circular A-133,
         Audits of States, Local Governments and Non-Profit Organizations.

         OIG will review all single audit reports with findings related to Commerce awards and
         work with the appropriate agency’s audit action official to resolve the findings and rec­
         ommendations in these reports. In addition, our office will provide technical assis­
         tance (related to the Single Audit Act) to Commerce award recipients and their inde­
         pendent accountants performing the audits. To assess and ensure audit quality, our
         office will participate in the National Single Audit Sampling Project and perform other
         quality control reviews as needed.

         Background:
                                                               The Single Audit Act Amendments of 1996
              Federal Awarding Agency                          require each state, local government, and
                  Responsibilities:                            not-for-profit    organization     expending
                                                               $500,000 or more in federal funds in a year
          � Advise grantees of requirements imposed            to have an annual audit of its financial state-
          on them by federal laws, regulations, and the        ments and federal awards performed by an
          provisions of contracts or grant agreements.
                                                               independent public accountant or state audi­
          � Ensure that audits are completed and               tor. The Single Audit Act requires that the
          reports are received in a timely manner and          audit findings be resolved within 6 months of
          in accordance with Circular A-133's require-         issuance of the audit report. A written agree­
          ments.
                                                               ment including the necessary corrective
          � Provide technical advice to auditees and	          action to be taken by the auditee to resolve
          auditors as requested.	                              the audit findings is coordinated by the Office
                                                               of Inspector General and the federal award­
          � Issue management decisions on audit find­
          ings within 6 months after receipt of the
                                                               ing agency. Our office reviews about 200 sin­
          audit report and ensure that the recipient           gle audit reports annually and participates in
          takes appropriate and timely corrective              the audit resolution of approximately 20 of
          action.
                                                               these single audits each year.
          � Assign a person responsible for providing
          annual updates of Circular A-133's                      OIGs and federal agencies that rely on sin-
          Compliance Supplement.                               gle audits are collaborating on a National
                                                               Single Audit Sampling Project to determine
          � Adequately identify federal awards to the	         whether such audits are conducted in accor­
          recipient.
                                                               dance with appropriate standards and if
                                                               reports are reliable. OIG will perform at least
         Source: OMB Circular A-133, Audits of States, Local   one quality control review of an organization
         Governments, and Non-Profit Organizations.
                                                               under our oversight.



34                                                                     Office of Inspector General/U.S. Department of Commerce
                                                              Ensuring Sound Fiscal Management, Investment, and Accountability




                           Verification and Validation of Performance
         Objective:
         To monitor and assess the Department’s efforts to establish relevant performance
         measures and report credible performance information.

         OIG plans to summarize common issues identified in prior reviews of bureau perform­
         ance measures; assess the bureau’s progress in addressing identified deficiencies;
         and provide insight as to whether reported performance results are accurate, reliable,
         and useful to Commerce management, OMB, and Congress. Reviews will focus prima­
         rily on performance measures addressed in the Performance & Accountability Report,
         and will seek to determine whether internal controls sufficiently ensure the accuracy
         of performance data.

         Background:
         OIG has conducted audits of selected performance measures at six Commerce oper­
         ating units—BIS, Census, NTIA, NIST, NOAA, and USPTO—since 2000, and these
         reviews have identified improvements needed to strengthen the Department’s per­
         formance measures. Congress has demonstrated its interest in performance meas­
         urement by requesting relevant assessments and by passing the Reports
         Consolidation Act of 2000, which, among other things, requires the Secretary of
         Commerce to evaluate the completeness and reliability of performance information
         provided in departmental
         reports.

             Commerce officials’ recog-                  EXCERPT: Government Performance
         nition that performance data                           Results Act of 1993
         must be credible is reflected in
         the Department’s FY 2004                  “SECTION 2. FINDINGS AND PURPOSES.
         Performance & Accountability              (a) Findings. The Congress finds that-
         Report. In that report, the
         Secretary noted that the                  (1) waste and inefficiency in federal programs undermine
         Department, in collaboration              the confidence of the American people in the government
                                                   and reduces the federal government's ability to address
         with the bureaus and the                  adequately vital public needs;
         inspector general, is working
         to continuously strengthen                (2) federal managers are seriously disadvantaged in their
         GPRA implementation and                   efforts to improve program efficiency and effectiveness,
         ensure that Commerce’s per­               because of insufficient articulation of program goals and
                                                   inadequate information on program performance; and
         formance information is appro-
         priate, complete, and reliable.           (3) congressional policymaking, spending decisions and
                                                   program oversight are seriously handicapped by insuffi­
                                                   cient attention to program performance and results.”




From Vision to Action: The 2005-2007 Office of Inspector General Work Plan                                                 35
E f f e c t i v e l y A c q u i r i n g a n dd

        M a n a g i n g M a j o rr

 S y s t e m s a n d O t h e r K e yy

               R e s o u r c e ss

Commerce spends more than $1.7 billion procuring goods and servic­
es from a variety of sources, and its reliance on contractor support is
increasing. The Department also spends a large portion of its budget
on major computer systems critical to its operations. Adequate over­
sight of the Department's acquisition is crucial to ensure that taxpayer
dollars are wisely spent and laws and regulations followed. OIG plans
to address several aspects of acquisition management at Commerce to
determine whether its acquisition processes comply with applicable
laws, regulations, and sound business practices.
       We plan to assess the Department's progress in implementing
the Clinger-Cohen Act, and NOAA's acquisition approach for high per­
formance computing resources. We also plan work to determine the
effectiveness of the Department's acquisition strategies for major com­
puting systems. We may evaluate NOAA's management of its real prop­
erty as well as the agency's management controls over acquisition of a
third fisheries research vessel.
      OIG may examine the effectiveness of NESDIS' acquisition activi­
ties and management of the nation's polar and geostationary environ­
mental satellites, in addition to assessing the Department's oversight
of major construction and renovation projects.




                                                                           37
                                                      Effectively Acquiring and Managing Major Systems and Other Key Resources




           Department-Wide Planning, Management, and Oversight of IT

                                                                   T
                                   Projects

                                          s
         Objective:
         To determine whether the policies, plans, processes, and oversight of Commerce’s
         information technology projects comply with the Clinger-Cohen Act of 1996 and
         sound business practices.

         OIG plans to assess the progress of the Department and selected operating units in
         implementing the capital planning and investment process, managing IT programs,
         and establishing and using enterprise architectures.

         Background:
                                                                      IT Planning Mission Statement
         Commerce bureaus plan significant expendi­
         tures on information technology systems and                  The primary goal of the Commerce IT
                                                                      Capital Planning and Investment Control
         services in FY 2005 to support the	                          program is to improve the IT manage-
         Department’s strategic missions. But OIG                     ment process by ensuring that executives
         has found that planning and management of                    have accurate and meaningful informa-
         IT investments throughout the Department                     tion for IT decision-making. This
         often fails to ensure they meet cost, sched-                 includes critical information on the pro­
                                                                      posed IT investment's overall value to
         ule, or performance goals. 	                                 the organization, the return on the invest­
                                                                      ment, and effective risk management
             The Clinger-Cohen Act requires that agen-                plans.
         cies integrate IT management with the
                                                         Source: www.osec.doc.gov/cio/oipr/ITPLAN­
         Department’s capital planning and invest-	 PAGE.HTM.
         ment process to ensure that the
         Department’s IT programs will make tangible improvements in mission achievement
         while staying on schedule and within budget. The administration has made implemen­
         tation of the act a top priority, which means agencies must improve capital planning,
         meet annual performance measures, and complete enterprise architectures.

             In late 2001 the Secretary directed a Department-wide IT management restructur­
         ing to improve compliance with the act. The restructuring increased the authority of
         bureau chief information officers, making them more integral members of their
         respective management teams. Subsequently, the Department instituted a process
         for regularly evaluating IT investments based on factors such as the investment’s busi­
         ness case and risks, the bureau’s ability to manage the program, compliance with the
         Department’s enterprise architecture, and progress in meeting measurable cost,
         schedule, and performance goals. The Department also is using the results of assess­
         ments based on OMB’s Program Assessment and Rating Tool in IT investment deci­
         sion-making to determine where IT investments can best support Commerce pro­
         grams in improving performance and meeting strategic goals.




From Vision to Action: The 2005-2007 Office of Inspector General Work Plan                                                 39
Effectively Acquiring and Managing Major Systems and Other Key Resources




                Implementation and Oversight of Acquisition Processes

                                                                    s
                                 Department-Wide
e
         Objective:
         To determine if the implementation and oversight of federal acquisition processes
         by the Department and its bureaus are effective and are carried out in accordance
         with applicable laws, regulations, policies, and sound business practices.

         OIG reviews may encompass several aspects of acquisition management at
         Commerce, including overall acquisition management processes and practices, serv­
         ice procurement, and contract planning and administration. They may assess the use,
         collection, and maintenance of past performance information in selecting vendors,
         and the training and skill level of contracting personnel. They may also entail reviews
         of specific acquisitions.

                              What Commerce Buys                                Background:
             $600,000,000         38%
                                                                                Commerce spends more than
             $500,000,000                                                       $1.7 billion per year, which
                                        27%                                     amounts to nearly 30 percent
             $400,000,000
                                                                                of its yearly budget, procuring
             $300,000,000                                              17%      goods and services from a vari­
                                                                  9%
                                                                                ety of sources, and its reliance
             $200,000,000
                                                                                on contractor-provided support
                                                   3%   2%   2%
             $100,000,000                     2%                                is increasing. Adequate over­
                                                                                sight of acquisitions by the
                        $0
                                                                                Department        is    critical.
                                                     es




                                                     rty




                                                       n

                                                   &D
                                                     es




                                                       t

                                                       t
                                                      E




                                                   en

                                                   en
                                                    io
                                                 A&




                                                                                Inadequate oversight of pro­
                                                  ic

                                                  ic

                                                pe




                                                 ct

                                                 R

                                                m

                                               pm
                                               rv

                                               rv




                                              ru
                                             ro




                                             ip
                                           Se

                                           Se




                                            ui
                                           st




                                pp E qu
                                          lP




                                                                                curements has been cited as a
                                         Eq
                                        on
                      er

                             IT

                                      ea




                                      s/
                                     C
                    th




                                    IT
                                    R




                                  lie
                   O




                                                                                problem in several OIG reports
                              Su




                                                                                and by the Office of
                           er
                         th
                        O




        Source: U.S. Department of Commerce, Systems Acquisition Division.      Management and Budget
                                                                                (OMB) and the Government
                                                                               Accountability Office (GAO).

             Commerce operating units that have been delegated procurement authority, as
         well as the senior procurement executive and the Office of Acquisition Management,
         all are challenged with developing and implementing innovative practices and proce­
         dures while operating with limited resources.




40                                                                       Office of Inspector General/U.S. Department of Commerce
                                                       Effectively Acquiring and Managing Major Systems and Other Key Resources




                            Strategies for Major Systems Acquisitions
         Objective:
         To determine the effectiveness of Department-wide acquisition strategies for obtain­-
         ing major computing systems.

         OIG will assess the planning and management of a number of systems acquisitions.
         These may include systems being acquired by the Census Bureau for the 2010 decen­
         nial census, such as Field Data Collection Automation and the 2010 Decennial
         Response Integration System. We may assess progress on the Master Address File
         and mapping system (Topologically Integrated Geographic Encoding and Referencing,
         or TIGER), which is being developed internally by the bureau, as a follow-up to our FY
         2003 review. Acquisitions supporting USPTO’s migration to full electronic processing
         of patents and trademarks, as well as those supporting selected NOAA operations,
         may also be reviewed.

         Background:                                     IT Funding as a Proportion of the
         Commerce spends a large                        Department's Total Budget Authority
         portion of its budget on
         major computer systems
         critical to operations.
         Successful systems acqui­
         sition requires a disci­
                                                DOC Budget
         plined approach that inte­             Authority for
         grates the technical, man­              FY 2005
                                                   80%
         agement, and contractual                                                                            Agency IT
                                                                                                            Investment
         elements of the acquisi-                                                                          Portfolio for FY
         tion process. The goal is to                                                                           2005

         obtain the best value prod-                                                                            20%


         uct in a timely manner,              Source: Exhibit 53, U.S. Department of Commerce FY 2005 Budget Submission.

         while maintaining the pub­

         lic’s trust and fulfilling pub­

         lic policy objectives.


             All appropriate parties must be involved in defining and documenting require­
         ments early in the planning stages. In addition, the contract’s statement of work and
         technical specifications must be complete and unambiguous, and cost and time esti­
         mates should provide realistic budgets and schedules. An experienced project man­
         ager and effective project management structure should be in place, and disciplined
         system and software engineering practices must be employed. Finally, agency man­
         agers responsible for overseeing the project must remain involved throughout the
         acquisition process, as previous OIG reports have emphasized.




From Vision to Action: The 2005-2007 Office of Inspector General Work Plan                                                    41
Effectively Acquiring and Managing Major Systems and Other Key Resources




                          Major Capital Facilities Improvement Projects
         Objective:
         To assess the Department’s oversight of Commerce’s major facilities construction
         and renovation projects.

         OIG will assess several of the Department’s current major renovation and construc­
         tion projects to determine if they have been properly planned and monitored. Projects
         we are considering for review include:

         � NOAA. NOAA has 21 major projects scheduled or in process, including construction
         of a Pacific Region Center in Hawaii, a fisheries research facility in Alaska, and a cen­
         ter for weather and climate prediction in Maryland.

         � NIST. The bureau continues its multimillion-dollar program to upgrade laboratories
                                                                  and facilities in Maryland
                                                                  and Colorado.

                                                                                      � Census. Two buildings are
                                                                                      being constructed at the
                                                                                      Suitland, Maryland, head­
                                                                                      quarters. Completion of the
                                                                                      Phase I building has been
                                                                                      postponed from March to
                                                                                      May 2006. The Phase 2
                                                                                      office building completion is
                                                                                      now scheduled for October
                                                                                      2006.

                                                                                      � Commerce Headquarters
                                                                                      (Herbert C. Hoover Building).
         Photo by Richard Reed for U.S. Census Bureau.
         The new Census Bureau building, scheduled for completion in late 2006, is
                                                                                      The Department is working
         part of a complex under construction in Suitland, Maryland.                  with GSA to plan a complete
                                                                                      renovation of the building.

         Background:
         At any given time, Commerce is either planning or is actively engaged in numerous
         major renovation and construction projects. The planning and contracting for and
         management of large, costly, and complex capital improvement and construction proj­
         ects involves a great deal of inherent risk, and is an area of particular vulnerability for
         Commerce. Department leadership and OIG oversight are crucial to the detection and
         resolution of problems early to save time and money.




42                                                                          Office of Inspector General/U.S. Department of Commerce
                                                       Effectively Acquiring and Managing Major Systems and Other Key Resources




             NOAA Management of Real Property, Plant, and Equipment
         Objective:
         To evaluate NOAA’s strategies, plans, and controls over leased and government-
         owned space.

         OIG may:

         � Evaluate NOAA’s strategies, plans, and controls to manage leased and government-
         owned space;

         � Review selected facilities and assess controls over capitalized equipment; and

         � Review the use of NOAA-owned houses.

         Background:                                   NOAA Consolidated FY 2004 PP&E Net
                                                               (Total $4.6 Billion)
         NOAA’s capital assets,
         totaling 513 installations
         across all 50 states, are                   Construction in                                   Land &
         valued in the hundreds of                     Progress                                     Improvements
                                                       2617.7 M                                        15.6 M
         millions of dollars. Among
                                                         58%                                            <1%
         these assets, NOAA cur­
         rently owns about 50
         houses, most of which are                                                                             Structures
         located in Alaska and the                                                                              605.6 M
         Pacific territory and are                                                                                13%
                                                Capital Lease
         primarily occupied by                     19.2 M

         National Weather Service                   <1%
                                                Systems
                                                                                                        763.5 M
         research employees, who
                                         Other                           16%

         would have difficulty find-                                     Personal
         ing housing in those
                                           Property
         remote areas. 
                                                 611.3 M
                                             Source: U.S. Department of Commerce, FY 2004 Performance & Accountability
                                             Report (Notes to the Financial Statements, Note 7-General Property, Plant, and
                                             Equipment, Net, p. 220).




From Vision to Action: The 2005-2007 Office of Inspector General Work Plan                                                    43
Effectively Acquiring and Managing Major Systems and Other Key Resources




           NOAA Acquisition of High Performance Computing Resources
         Objective:
         To determine NOAA’s progress in implementing its consolidated acquisition
         approach for high performance computing (HPC) resources, and assess its program
         management and risk reduction activities.

         OIG plans to assess NOAA’s consolidated HPC resources planning and acquisition
         approach, requirements management, program management, and risk reduction
         activities.

         Background:
         High performance computing plays a critical role in the design, development, and effi­
         cient delivery of products in support of NOAA’s mission. NOAA HPC system facilities
         are used to produce timely information and assessments of climate variability and
         changes, run earth system models, and conduct applied meteorological research and
                                                                     development to create short-term
                                                                     warning and weather forecast systems
                                                                     and to improve observing technology.
                                                                     Three NOAA organizations have inde­
                                                                     pendently acquired, managed, and
                                                                     operated     HPC     resources:   the
                                                                     Geophysical       Fluid     Dynamics
                                                                     Laboratory in Princeton, New Jersey;
                                                                     the Forecast Systems Laboratory in
         Source: www.noaanews.noaa.gov/stories/s1156.htm.            Boulder, Colorado; and the National
                                                                     Centers for Environmental Predictions
         NOAA’s Forecast Systems Laboratory in Boulder, Colorado, is
         a leader in high performance computing, providing essential in Camp Springs, Maryland.
         infrastructure for weather and other environmental research.
                                                           In late 2003, NOAA adopted a “cor­
                                                        porate view” of acquiring, managing,
         and operating these resources to address increasing requirements and budgetary
         constraints, and to expedite the transition of products from research to production.
         Four strategic HPC objectives emerged: (1) conduct NOAA-wide planning, program­
         ming, budgeting, and execution for requirements; (2) migrate to two technical archi­
         tectures (one for operations, operational development and backup, and the other for
         applied R&D); (3) acquire systems based on functional, not organizational, needs; and
         (4) implement an integrated approach for managing the consolidated HPC program.
         NOAA projects the benefits from this consolidated approach will include more effec­
         tive use of HPC resources and faster transition of products from research to produc­
         tion.




44                                                                      Office of Inspector General/U.S. Department of Commerce
                                                       Effectively Acquiring and Managing Major Systems and Other Key Resources




                       NOAA Acquisition of Fisheries Research Vessels
         Objective:
         To determine the effectiveness of management controls associated with acquiring
         and managing fisheries research vessels.

         OIG plans to evaluate the acquisition of the third vessel to ensure that contractual
         cost and timeliness performance goals are being met.

         Background:
         Acquisitions reform is a critical challenge facing Commerce. All too frequently, failure
         to analyze and manage risk inherent in the acquisitions process leads to cost over­
         runs, schedule delays, and poor purchasing decisions. Agencies need a disciplined
         capital assets procurement process that incorporates the key controls of planning,
         risk management, portfolio analysis, performance-based acquisition management,
         accountability for meeting goals, and cost-effective management of the asset through­
         out its life cycle.

             In January 2001, NOAA awarded a contract to construct four state-of-the-art fish­
         eries research vessels (FRVs). NOAA expects this program to extend into 2008 and
         cost more than $200 million. In FY 2003, NOAA received funding for a second ship,
         which is currently under construction and expected to be completed by 2006. In FY
         2004, Congress approved funding of $33.8 million for the third planned vessel. When
         OIG reviewed the acquisition of the first vessel in 2002, we found management con­
         trols needed improvement.




                Source: www.noaanews.noaa.gov/stories2005/s2392.htm.

                NOAA’s newest ship, FSV Oscar Dyson, was launched Oct. 17, 2003, at the VT Halter Marine shipyard
                in Moss Point, Mississippi.




From Vision to Action: The 2005-2007 Office of Inspector General Work Plan                                                  45
Effectively Acquiring and Managing Major Systems and Other Key Resources




                NESDIS National Polar Convergence and Geostationary

                                                                  y
                                      Satellites

                                               s
         Objective:
         To determine the effectiveness of the National Environmental Satellite, Data, and
         Information Service’s (NESDIS’) acquisition activities and management of the
         nation’s polar and geostationary environmental satellites.

         OIG may examine NESDIS satellite programs, paying close attention to one or more of
         the following areas: program management, acquisition plans and contract structures,
         contract administration, cost control activities, cost estimation and development,
         requirements development, system development and testing, ground systems opera­
         tions, and assumptions related to satellite operational life expectancy.

         Background:
         NESDIS satellite systems collect environmental data and provide continuous monitor­
         ing of short-term severe weather, such as hurricanes and thunderstorms. NESDIS
         Polar Convergence Program is attempting to consolidate the nation’s civilian, military,
         and research polar satellites into one program to achieve a projected savings of $1.3
                                              billion. The Geostationary Satellite Program com­
                                              prises satellites and ground systems either in
                                              development, production, or operation by various
                                              contractors. NESDIS appropriations for acquisi­
                                              tions for both satellite programs were more than
                                              $700 million in FY 2005. The polar and geosta­
                                              tionary satellite programs, which in turn are
                                              made up of multiple programs each, have life-
                                              cycle costs estimated in billions of dollars. Those
                                              individual programs have multiple contracts both
                                              planned and in place.

                                                               Both OIG and GAO have reported on specif­
                                                       ic problems in the acquisition and management
                                                       of NESDIS satellites. Previously estimated to cost
                                                       $6.9 billion with a planned first launch in March
                                                       2008, the National Polar-orbiting Operational
                                                       Environmental Satellite System (NPOESS) satel­
                                                       lite is now estimated to cost $8.1 billion, with
                                                       launch of the first satellite scheduled for
                                                       November 2009.



         Source: www.nesdis.noaa.gov/.




46                                                                    Office of Inspector General/U.S. Department of Commerce
                                                             Effectively Acquiring and Managing Major Systems and Other Key Resources




         Department-Wide Data Management Programs and Operations
         Objective:
         To determine whether Commerce operating units’ data management capabilities
         support mission-critical operations, data sharing with other government entities,
         and the public’s access to data.

         OIG plans to assess selected data management programs, such as NOAA’s Integrated
         Global Environmental Observation and Data Management System, to determine if
         they efficiently and effectively preserve and store information, control the quality of
         data, and provide user access to holdings. OIG also will assess operating units’ efforts
         to modernize data systems, operations, and services.

         Background:
         Government agencies are required to handle rapidly increasing amounts of scientific,
         statistical, geographic, business, and personal data. The government’s emphasis on
         performance and results creates the need to expedite access to and use of this data.
         Moreover, protecting data from damage or loss poses significant maintenance and
         storage challenges that require modern systems and operations.

            The missions of Commerce operating units present a wide variety of data manage­
         ment needs including collecting large amounts of weather information to support
         weather prediction and climate research; administering the growing patent and trade­
         mark database; and processing massive quantities of confidential resident data gath­
         ered by the decennial and other censuses and surveys.




         The patent and trademark database
         administered by USPTO is an
         example of the significant mainte­
         nance and storage challenges that
         Commerce bureaus face as they
         manage huge quantities of data.
         Government agencies are required
         to handle increasing amounts of sci­
         entific, statistical, geographic, busi­
         ness, and personal data.




                                                   Source: www.uspto.gov/patft/.




From Vision to Action: The 2005-2007 Office of Inspector General Work Plan                                                        47
            Interagency OIG              G

       I n i t i a t i v e s : F o s t e r i n gg

          G o v e r n m e n t - W i d ee

              I m p r o v e m e n t ss

In recent years, Congress has been pressing for government-wide
examinations of some matters the legislature deems critical to the
nation. In addition, the President's Council on Integrity and Efficiency,
the interagency group of inspectors general from cabinet-level depart­
ments and major agencies, often discovers that issues that affect mul­
tiple federal agencies are ripe for review. Thus, OIG at the Department
of Commerce frequently gets involved in multi-OIG projects.
       Potential multi-OIG projects may include examining agencies' use
of interagency and other special agreements to carry out missions. This
is an area we found to be problematic for a number of Commerce oper­
ating units in the late 1990s.
      We also intend to examine Commerce's progress in implementing
e-government initiatives and assess security measures used to main­
tain personal privacy and protect government assets.




                                                                            49
                                                               Interagency OIG Initiatives: Fostering Government-Wide Improvements




          Government-Wide and Crosscutting Projects Involving Multiple
                        Offices of Inspector General
         Objective:
         To perform work on government-wide and crosscutting issues best addressed by
         review teams made up of representatives from multiple OIGs.

         Current and potential multi-OIG projects include:

         � A series of reviews to assess the adequacy and effectiveness of export controls and
         counterintelligence measures in preventing the acquisition of sensitive U.S. technolo­
         gy and technical information by countries or entities of concern. These are being con­
         ducted by six OIGs pursuant to the National Defense Authorization Act for fiscal year
         2000, which mandated annual reporting on this subject until 2007.

         � An examination of agencies’ use of interagency and other special agreements to
         carry out missions—an area noted as problematic for Commerce operating units in a
         series of reviews conducted in the late 1990s.

         � An assessment of the adequacy of emergency preparedness and physical security
         of government facilities and personnel.

         Background:
         Although some crosscutting issues have agency-specific characteristics that make
         review by one agency’s OIG most suitable, in some instances a broader perspective
         through joint reviews by two or more OIGs is more appropriate. On occasion, con­
         gressional committees seeking a government-wide examination of critical matters
         involving multiple agencies request these broader reviews. At other times, they grow
         out of discussions by the President’s Council on Integrity and Efficiency, the intera­
         gency group composed of IGs from larger federal agencies.

                  E XAMPLE OF M ULTIPLE OIG R EVIEW P ROJECT: F EDERAL A GENCIES
                      PARTICIPATING IN THE R EVIEW OF U.S . E XPORT L ICENSING

             The Bureau of Industry and Security (BIS) is the primary agency responsible for managing and enforcing
             the licensing process for dual-use exports,which are commercial products that could have both civilian and
             military applications.




         The Central Intelligence              U.S. Department of State, Directorate       U.S. Department of Energy,
         Agency and the U.S.                   of Defense Trade Controls, manages          National Nuclear Security
         Department of Homeland                the munitions licensing process and         Administration, licenses nuclear
         Security (Bureaus of                  advises Commerce regarding dual-use         technology and technical data for
         Immigration and Customs               commodity licensing.                        nuclear power and special materials.
         Enforcement and Customs and
         Border Protection) provide
         information and assistance to    U.S. Department of Defense, Defense /Threat Reduction Agency - Technology
         Commerce and State with          Security is responsible for the development and implementation of policies on inter­
         license reviews and enforce­     national transfers of defense-related technology and reviews certain munictions and
         ment of export controls.         dual use export license applications referred by State and Commerce.


From Vision to Action: The 2005-2007 Office of Inspector General Work Plan                                                        51
Interagency OIG Initiatives: Fostering Government-Wide Improvements




                                     Electronic-Government Initiatives
         Objective:
         To determine the Department’s progress in implementing electronic government (e­-
         gov) initiatives and assess security measures used to maintain personal privacy and
         protect government assets in e-gov transactions.

         OIG may examine how well the Department and selected agencies are integrating
         their online processing with government-wide e-gov initiatives, such as the Integrated
         Acquisition Environment, and addressing the technical challenges of e-gov implemen­
         tation in areas such as electronic authentication (systems that remotely ensure users
         of a network are who they claim to be), access for persons with disabilities, and priva­
         cy. OIG may also examine Commerce’s efforts to identify investments and possible
         savings and benefits within the lines of business being promoted by OMB.

         Background:
         E-gov is a government-wide initiative for using Internet technology to make it easier for
         citizens and businesses to interact with the government, save taxpayer dollars, and
         streamline citizen-to-government communications. Commerce actively uses the
         Internet, providing information to the public and the ability to perform transactions
         online. Citizens can apply for fishing permits, export licenses, grants, patents, and
         trademarks, and complete survey forms, as well as perform many other online busi­
         ness activities. Commerce participates in 15 of the 24 government-wide e-gov initia­
         tives.




             Source: www.pewinternet.org/trends/InternetAdoption.jpg.

             Over a 10-year period, the percentage of American adults online has increased from about 10 percent to 60 per­
             cent. Of the 128 million Internet users, 66 percent visit government web sites.




52                                                                          Office of Inspector General/U.S. Department of Commerce
        S p e c i a l O I G F o c u s ::

         Emerging Issues,
        Investigations, and
        Follow-up on Major
        Recommendations
Ensuring appropriate coverage of the Department’s programs and
operations requires a great deal of thoughtful, organized planning, and
the OIG work plan is designed to be an informative guide to the work to
be done. But the very nature of the work we do means that much of it
is impossible to schedule. Often allegations of fraud, waste, abuse,
mismanagement or other misconduct requires us to begin an investiga­
tion that could not have been foreseen.
      By the same token, OIG must ensure that the Department imple­
ments action to resolve problems we have identified in prior work.
Therefore, we dedicate some effort each year to determining the status
of our most critical findings and recommendations, as required by
Department Administrative Order 213-5, Audit Resolution and Follow-
up.




                                                                          53
                                     Special OIG Focus: Emerging Issues, Investigations, and Follow-up on Major Recommendations




               Emerging Issues, Investigations, and Follow-up on Major

                                                                     r
                                 Recommendations
  s
         The Department of Commerce is composed of 13 very diverse bureaus, with more
         than 35,000 employees spread out in locations all over the globe. The Office of
         Inspector General, by contrast, has only about 120 employees located in three region­
         al offices and the Washington, D.C., headquarters. Clearly, ensuring appropriate cov­
         erage of the Department’s programs and operations requires a great deal of thought­
         ful, organized planning.

             Despite our extensive planning, the fact is, much
         of our work derives from circumstances we cannot
         schedule ahead of time. Experience has long shown
         us we cannot predict, for example, when allegations of
         fraud, waste, abuse, mismanagement, or other mis­
         conduct from employees, contractors, or the OIG
         Hotline will require us to launch an investigation.
         There is no way to know when information relating to
         a specific instance of theft and/or abuse of govern­
         ment property, travel fraud, conflict of interest, illegal
         kickbacks, improper contracting and procurement, or
         grant fraud will arrive in our office. In addition, high
         profile issues requiring immediate attention often
         emerge quickly and unexpectedly, and changing budg­
         et priorities also inherently affect our work flow and
         resources.

              Our work plan serves as a roadmap to guide the efforts of the professionals who
         fulfill the mission of OIG and improve government. Moreover, we focus our follow-up
         reviews on the most critical issues facing Commerce and its operating units as things
         stand now. But we recognize that our work plan is a starting point, not an ending. If
         Congress should make an inquiry or issue a request, OIG must respond in timely fash­
         ion. Likewise, if an allegation leads to an in depth, long-term investigation, review
         plans may have to change or be abandoned in the short term to be revisited later.

             Ultimately, the tangible value of our work is realized in the actions the Department
         takes to implement our recommendations, in the recovery of abused or misused
         funds, and in the improvement of programs that did not work well prior to OIG’s initi­
         ation of an inspection or evaluation. Our work impacts the lives of millions of
         Americans, whether the average person realizes it or not. And so, we continue to plan
         specific tasks while recognizing that the reality of the world is such that sometimes a
         plan must briefly stand idle while immediate concerns are addressed.




From Vision to Action: The 2005-2007 Office of Inspector General Work Plan                                                  55
                             A p p e n d i x e ss

                                         Appendix A
                                  Types of OIG Reviews
     The various kinds of audits, evaluations, inspections, and investigations at our dispos­
     al enable the IG's office to assess Commerce programs and operations from a range
     of perspectives. Thus we are able to provide program managers with reviews and rec­
     ommendations that are either narrowly focused or comprehensive, as needed, to aid
     them in ensuring the most efficient and effective use of taxpayer dollars.

                                            AUDITS
     Performance Audits address the efficiency, effectiveness, and economy of the
     Department's programs, activities, and information technology systems. They may
     check a unit's compliance with laws and regulations, and evaluate its success in
     achieving program objectives. They may also involve reviewing the Department's
     financial assistance awards by assessing an award recipient's compliance with laws,
     regulations, and award terms; allowance of costs; and the degree to which projects
     achieved intended results.

     Financial Audits determine whether (1) a reporting entity's financial statements are
     presented fairly and in accordance with generally accepted accounting principles; (2)
     the entity has an internal control structure that provides reasonable assurance of
     achieving the control objectives set forth by OMB; and (3) the entity complied with
     laws and regulations that could have a direct and material effect on the financial
     statements, the Federal Financial Management Improvement Act, and other laws and
     regulations.

     Attestation Engagements involve examining, reviewing, or performing agreed-upon
     procedures on a subject matter or an assertion about a subject matter and reporting
     the results. Attestation engagements can have a broad range of financial or nonfinan­
     cial focuses, such as an entity's compliance with laws and regulations; management's
     discussion and analysis presentations; and allowability and reasonableness of final
     grant and contract costs.

                                        INSPECTIONS
     Inspections are reviews of an activity, unit, or office, or a contractor or other nonfed­
     eral entity that receives funds from the Department. They focus on an organization,
     not a whole program, and are often designed to give agency managers timely and use­
     ful information about operations, including current and foreseeable problems.



56                                                     Office of Inspector General/U.S. Department of Commerce
                                                    EVALUATIONS

                                                              S
         Program Evaluations are in-depth reviews of specific management issues, policies, or
         programs.

         Systems Evaluations review system development, acquisitions, operations, and
         policy, focusing on computer systems and other technologies.



                                                 INVESTIGATIONS
         Investigations are conducted based on alleged or suspected wrongdoing by
         Department employees, contractors, recipients of financial assistance, and others
         responsible for handling federal resources. Investigations that expose violations of
         Department rules and regulations or acts of fraud committed against the U.S. govern­
         ment can result in administrative sanctions and/or criminal or civil prosecution.




From Vision to Action: The 2005-2007 Office of Inspector General Work Plan                      57
                                        APPENDIX B:
          U.S. Department of Commerce Management Challenges
     The Office of Inspector General, in assessing its work at the close of each semiannu­
     al period, develops the Top 10 Management Challenges the Department faces. Each
     challenge meets one or more of the following criteria: (1) it is important to the
     Department’s mission or the nation’s well-being, (2) it is complex, (3) it involves siz­
     able expenditures, or (4) it requires significant management improvements. Because
     of the diverse nature of Commerce activities, many of these criteria cut across bureau
     and program lines. We believe that by addressing these challenges the Department
     can enhance program efficiency and effectiveness; eliminate serious operational
     problems; decrease fraud, waste, and abuse; and achieve substantial savings.



                          Top 10 Management Challenges
            (as reported in the September 2004 Semiannual Report to Congress)



     1.	 Strengthen Department-wide information security.
     2.	 Effectively manage departmental and bureau acquisition processes.
     3   Successfully operate USPTO as a performance-based organization.
     4.	 Control the cost and improve the accuracy of Census 2010.
     5.	 Increase the effectiveness of marine resource management.
     6.	 Promote fair competition in international trade.
     7.	 Enhance export controls for dual-use commodities.

     8.	 Enhance emergency preparedness, safety, and security of Commerce facilities
         and personnel.
     9.	 Strengthen financial management controls and systems.
     10. Continue to improve the Department's strategic planning and performance.




58                                                    Office of Inspector General/U.S. Department of Commerce
                            Appendix C: U.S. Department of Commerce

                                                                  e
                                        Organization Chart

                                                         t

                                                    OFFICE OF THE
                                                     SECRETARY


               Bureau of                   Economic                     International              U.S. Patent and
             Industry and                 Development                       Trade                    Trademark
                Security                 Administration                Administration                   Office




                           Economics and
                              Statistics                                               Technology
                           Administration                                             Administration




                                                                                 National          National
                                        Bureau of
                   Bureau of the                                                Institute of      Technical
                                        Economic                              Standards and      Information
                     Census
                                        Analysis                               Technology          Service




                                Minority                                                National
                                                       National Oceanic
                                 Business                                         Telecommunications
                                                       and Atmospheric
                               Development                                          and Information
                                                        Administration              Administration
                                 Agency



                                                  National             National
                                                   Marine
                                                                        Ocean
                                                  Fisheries
                                                   Service             Service



                                                  National           Marine and
                                                  Weather             Aviation
                                                  Service            Operations



                                                  National
                                               Environmental         Oceanic and
                                               Satellite, Data,
                                                     and             Atmospheric
                                                Information           Research
                                                   Service



From Vision to Action: The 2005-2007 Office of Inspector General Work Plan                                       59
                                        APPENDIX D:
:
                  Office of Inspector General Organization Chart

                                                               t

                                                Inspector
                                                 General
           Office of
                                                                                Office of
         Compliance &
                                                                                Counsel
         Administration
                                        Deputy Inspector
                                           General

               Office of
                                                 Office of
           Inspections and

         Program Evaluations
                                        Systems Evaluation




                                                                        Office of
                  Office of Audits
                                                                     Investigations




     Business &       Financial                                                        Investigative
                    Statements &     Regional        Investigative     Investigative
      Science       Accountability                                                       Resident
      Division                        Audits           Services        Field Offices
                        Audits                                                            Offices




60                                                      Office of Inspector General/U.S. Department of Commerce
                                                     APPENDIX E:
:


                            Of f ice of Inspect or General
                                                   General

                             Contact Phone N umber ss

         INSPECTOR GENERAL                                                         (202) 482-4661

                                                                                                1

         LEGISLATIVE AND INTERGOVERNMENTAL AFFAIRS                                 (202) 482-2187

                                                                                                7

         OFFICE OF AUDITS                                                          (202) 482-1934

                                                                                                4

         OFFICE OF COMPLIANCE AND ADMINISTRATION                                   (202) 482-2637

                                                                                                7

         OFFICE OF COUNSEL                                                         (202) 482-5992

                                                                                                2

         OFFICE OF INSPECTIONS AND PROGRAM EVALUATIONS                             (202) 482-2754

                                                                                                4

         OFFICE OF SYSTEMS EVALUATION                                              (202) 482-6186

                                                                                                6

         MEDIA INQUIRIES                                                           (202) 482-5992

                                                                                                2

         OIG INTERNET WEB SITE                                                     http://www.oig.doc.gov

                                                                                                        v

          REQUESTS FOR REPORTS:                                  OIG HOTLINE:
          Telephone                           (202) 482-5348     Telephone         (202) 482-2495 or (800) 424-5197
          TDD Number                          (202) 482-5923     Internet E-mail                 hotline@oig.doc.gov
          Internet E-Mail                  reports@oig.doc.gov




From Vision to Action: The 2005-2007 Office of Inspector General Work Plan                                             61
